EFiled: Feb 15 2021 11:07A
Filing ID 66339747
,
Case Number 366,2020
'

IN THE SUPREME COURT OF THE STATE OF DELAWARE
MILLARD PRICE,

§

Defendant Below,
Appellant,
v.
STATE OF DELAWARE,
Plaintiff Below,
Appellee.

§

No. 366, 2020

§
§
§
§

Court Below—Superior Court
of the State of Delaware

§

Cr. ID No. 0804009949A (S)

§
§
§
§

Submitted: December 31, 2020
Decided:
February 15, 2021
Before SEITZ, Chief Justice; TRAYNOR and MONTGOMERY-REEVES,
Justices.
ORDER
Upon consideration of the appellant’s opening brief, the appellee’s motion to
affirm, and the record on appeal, it appears to the Court that:
(1)

The appellant, Millard Price, filed this appeal from the Superior Court’s

denial of a motion in which he sought vacatur or modification of his sentence. The
State has moved to affirm the judgment below on the ground that it is manifest on
the face of the opening brief that the appeal is without merit. We agree and affirm.
(2)

In 2014, Price pled guilty to second-degree murder and possession of a

firearm during the commission of a felony (“PFDCF”).
sentenced Price as follows:

The Superior Court

for second-degree murder, to thirty years of

-J

imprisonment, suspended after fifteen years and successful completion of the
Greentree Program for decreasing levels of supervision; and for PFDCF, to ten years
of imprisonment.
(3)

On August 27, 2020, Price filed a “Motion to Vacate or Alternatively

Resentence,” in which he claimed that he was entitled to relief from his sentence
under Superior Court Criminal Rule 35(a). He made the following arguments that
he also asserts on appeal: (i) the sentence is illegal on its face because the Greentree
Program no longer exists and Price therefore cannot complete that program; (ii)
correctional officers assaulted him in retribution for a prison riot, violating his
Eighth Amendment rights; and (iii) he was denied adequate medical care in violation
of his Eighth Amendment rights. The Superior Court denied the motion on the
grounds that prison conditions do not establish a basis for relief under Rule 35, and
the Department of Correction (“DOC”) could classify Price to a program it deems
appropriate in light of the elimination of the Greentree Program. This appeal
followed.
(4)

We review the denial of a motion for sentence modification for abuse

of discretion.1 Price argues that the assault and denial of adequate medical care
violated his Eighth Amendment rights and therefore permit a collateral attack on his
sentence. We conclude that Price is not entitled to the relief that he seeks. Cannon

Gladden v. State, 2020 WL 773290 (Del. Feb. 17, 2020).
2

V

J

v. State, on which Price relies, held that the Superior Court was required to consider
evidence, which the defendant sought to introduce, that imposition of a sentence that
included a statutorily-permitted penalty of whipping “might well have a far-reaching
and unwarranted adverse effect upon him” because of his individual mental
condition.2 In this case, in contrast, Price does not challenge an inherent aspect of
the sentence but rather seeks to challenge conditions and events that occurred in the
prison while serving his sentence. Those facts align more closely with the facts
presented in the other Eighth Amendment decisions on which Price relies.3 But those
cases involved civil litigation and not modification of a defendant’s criminal
sentence; those authorities therefore do not support the relief Price seeks.4
(5)

Superior Court Criminal Rule 35(b) provides that the court will

consider a motion made more than ninety days after the imposition of a sentence
only in “extraordinary circumstances or pursuant to 11 Del. C. § 4217.”5 Section
4217 permits the Superior Court to modify a defendant’s sentence if DOC files an
application for good cause shown—including a defendant’s serious medical illness
or infirmity—and certifies that the defendant does not constitute a substantial risk to

2196 A.2d 399,400 (Del. 1963).
3 See Opening Brief at 16-18.
4 See Woods v. State, 2021 WL 3040007 (Del. Jan. 28, 2021) (stating that Eighth
Amendment case law cited by appellant did not support desired relief of sentence
modification).
5 Del. Super. Ct. R. 35(b).
3

• J

the community or himself.6

If Price’s “specific individual medical condition

warrants] sentence modification, an application by DOC under § 4217 is the proper
vehicle to deliver such relief.”7
(6)

With respect to Price’s contention that his sentence is illegal because it

requires him to complete the Greentree Program, which no longer exists, the State
argues that the Superior Court correctly determined that DOC has discretion to place
Price in a different drug treatment program. But it concedes that, in circumstances
such as these, DOC would normally request that the sentence order be modified to
reflect that it has discretion to designate a different program. The State therefore
suggests that the case be remanded to the Superior Court to allow the court to modify
the sentence order to reflect that DOC has discretion to approve an appropriate drug
treatment program for Price. We agree that remand for that limited purpose is
appropriate and in the interest of judicial economy.

611 Del. C. §4217.
7 Williams v. State, 2020 WL 7311325, at *1 (Del. Dec. 10, 2020).
4

■ t-

NOW, THEREFORE, IT IS ORDERED that the Motion to Affirm is
GRANTED and the judgment of the Superior Court is AFFIRMED. The matter is
REMANDED to allow the Superior Court to modify the sentence order as set forth
in this order. Jurisdiction is not retained.

BY THE COURT:
/s/ Tamika R. Montgomerv-Reeves
Justice

5

SUPERIOR COURT
OF THE
STATE OF DELAWARE
RICHARD F. STOKES
RESIDENT JUDGE

SUSSEX COUNTY COURTHOUSE
1 THE CIRCLE, SUITE 2
GEORGETOWN, DE 19947
TELEPHONE (302) 856-5264

October 13, 2020
Millard E. Price
SBI# 00441452
Howard R. Young Criminal Institution
1301 E. 12lh Street
Wilmington, DE 19801
Re: Def. ID# 0804009949A
Dear Mr. Price:
I have reviewed your Motion for Appointment of Counsel, Motion to Vacate or
Alternatively Resentence, and Memorandum of Law filed August 27, 2020.
Your Motion to Vacate or Alternatively Resentence fails to set forth relief which may be
considered pursuant to Superior Court Criminal Rule 35. The fact that you were assaulted is not a
Rule 35 matter.
Additionally, the Department of Correction has no duty to provide a prisoner with a
particular rehabilitation program.1 Despite the fact that the Greentree Program is no longer in
existence, the Department of Correction has the ability to classify you to a program as deemed
appropriate.
Your Motion for Appointment of Counsel and Motion to Vacate or Alternatively
Resentence is DENIED. IT IS SO ORDERED.
Very trulyw>urs(

ichard- F. Stokes
RFS:tll
cc:

Prothonotary’s Office

1Deshields v. State, 2012 WL 1072298, at *1 (Del. Mar. 30, 2012).

